Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




 FRAGMENTED       PHYSICIAN CLAIMS 





              SEPTEMBER   1992 

                      OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT             SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessmentsof HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and 

program evaluations (called inspections) that focus on issues of concern to the Department, 

the Congress, and the public. The findings and recommendations contained in these inspection 

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, 

and effectiveness of departmental programs. 


This report was prepared by the Health Care Branch, Office of Evaluation and Inspections. 

The following persons participated in the project: 


Cathaleen A. Ahern 

David C. Hsia, M.D., J.D., M.P.H. 

Brian P. Ritchie 


To obtain a copy of this report, call the Health Care Branch at (410) 966-3148. 

Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




FRAGMENTED       PHYSICIAN CLAIMS 

              EXECUTIVE                         SUMMARY
PURPOSE

The Office of Inspector General (OIG) conducted this study to examine patterns of
physician billing in certain cases in which a Medicare beneficiary underwent more than
one surgical procedure on the same day.

BACKGROUND

This study illustrates the types of claims discussed in a September 1991 OIG report,
“Manipulation of Procedure Codes by Physicians to Maximize Medicare and Medicaid
Reimbursement.”       Another Office of Inspector General inspection, of liver biopsies,
identified a high rate of fragmented claims - those in which a physician billed for
opening the abdomen and removing the gallbladder as well as biopsying the liver, for
example. In this example, only the gallbladder removal should be billed for; the
biopsy should not be since it was not a “separate procedure” as defined in the
guidelines of Phvsicians’ Current Procedural Terminologv (CPT-4) and the laparotomy
(incision) should not be as it was only an approach to the gallbladder.

Because 63 percent of all surgical cases in that sample were fragmented, the OIG
examined billing and payment data for other, similar surgeries, using 1988 claims.

METHODS

From a list of codes for exploratory surgery and biopsies, 6 codes with potential for
incorrect billing were selected for further review. The 6 codes for biopsy and/or
exploration were claimed 240,800 times for $54,660,400 (projected); another surgical
code was billed on the same day 160,300 times, for $79,653,600 (projected). These
codes were further examined. An OIG physician determined which surgical
procedures could reasonably be performed and properly billed on the same day. The
remaining combinations of procedures are discussed in this report.

FINDINGS

Physicians frequently billed for biopsies and/or explorations which were part of
another surgical procedure, realizing as a result more than $12 million in
overpayments in 1988:

.	     Projected overpayments associated with two exploratory surgery codes, and with
       surgical biopsies of the liver and pancreas, total $7,620,565 for 1988.

.	     Projected overpayments   for “separate procedures”   claimed inappropriately
       totalled $3,404,100.




                                            i
.	      Projected overpayments for secondary procedures that should have been denied
        as duplicative or mutually exclusive totalled $1,721,600.

RECOMMENDATION

The Health Care Financing Administration            should require carriers to deny or adjust
payment for:

(1)     “exploratory”   surgery performed   incidently to a procedure     separately billed,

(2) 	   biopsies performed    in the course of more major surgery in the same body
        cavity,

(3)     “separate procedures”    billed with another procedure,

(9      mutually-exclusive   procedures, and

(5)     claims by assistants for procedures denied when billed by surgeons.

Proper denial of such claims can be accomplished by creating screens which reject
exploration codes billed with any related code, adjust biopsy codes when billed with
more major surgery, reject codes for “separate procedures” unless they are the only
procedure claimed, reject duplicative and mutually-exclusive procedures, and pay
assistants only when the surgeon may be paid for a procedure.

In HCFA’s response to the draft report, they concurred in part with these
recommendations and identified additional steps they have taken which address some
of these concerns. We removed from the overpayment calculation two sets of codes
dealing with breast biopsies and bone marrow biopsies. While we continue to believe
these represent fragmented billing, HCFA believes they represent permissible coding.
We have retained the recommendation dealing with payments to assistants at surgery,
and will more fully develop this issue in a future inspection. The HCFA’s comments
are included in their entirety as appendix E.




                                               ii
                             TABLE                    OF         CONTENTS

EXECUTIVE            SUMMARY             ...........................................   i


INTRODUCTION    ..................................................                     1

      PURPOSE ...................................................                      1

      BACKGROUND          ..............................................               1

      METHODS   ..................................................                     2


FINDINGS           .......................................................             4


RECOMMENDATION                      ..............................................     8


APPENDIX          A:   Laparotomies 

APPENDIX          B:   Breast and Bone Marrow Biopsies 

APPENDIX          C:   Liver and Pancreas Biopsies 

APPENDIX          D:   “Separate Procedures” 

APPENDIX          E:   HCFA’s Comments 

                          INTRODUCTION
PURPOSE

The Office of Inspector General (OIG) conducted this study to examine patterns of
physician billing in certain cases in which a Medicare beneficiary underwent more than
one surgical procedure on the same day.

BACKGROUND

Other OIG Studies This study illustrates the types of claims discussed in the
September 1991 OIG report, “Manipulation of Procedure Codes by Physicians to
Maximize Medicare and Medicaid Reimbursement.”

In another inspection, on liver biopsies, the OIG selected a random 1 percent sample
of claims for Medicare patients who underwent liver biopsies (procedure codes 47000
and 47100). This process identified 329 claims, representing 273 patients and 290
biopsies. In all but 17 cases, the OIG was able to identify the hospital in which the
biopsy took place. The OIG requested the entire medical record from each of the
hospitals. The final sample consisted of 289 claims for 237 patients representing 253
procedures.

Thirteen percent (39 of 289 claims) were miscoded, claiming a wedge was performed
when actually a needle sample was taken, or vice versa, or billing when no biopsy, or
no procedure at all, was performed. Surgeons billed for both a biopsy and an
exploratory laparotomy in 14 claims. In 82 of 128 claims, surgeons billed for a liver
biopsy as well as a more major procedure such as a gallbladder removal. Our findings
from this study are reported in the December 1991 OIG report, “Liver Biopsies.”

These findings led us to further examine the payment for exploratory     surgery and
biopsies when performed with another surgical procedure.

Coding Concems The most important coding issue discussed in this report is what is
called “fragmentation.”   Even the simplest surgical procedure involves many steps,
from the preparation of the skin to the incision to the control of bleeding and eventual
suture of the incision. All of these steps are integral to the procedure itself; other, less
obvious, links exist between the major procedure being performed and other minor
procedures which, when performed alone, can be coded separately. Examples of the
latter procedures are discussed in this report.

The guidelines given to surgeons in Phvsicians’ Current Procedural Terminolorrv (CPT-
4), issued by the American Medical Association, discuss when a procedure may be
considered a “separate procedure” for reporting and billing purposes.




                                             1

       SEPARATE PROCEDURE:              Some of the listed procedures are commonly
       carried out as an integral part of a total service, and as such do not warrant a
       separate identification.  When, however, such a procedure is performed
       independently of, and is not immediately related to, other services, it may be
       listed as a “separate procedure.” Thus, when a procedure that is ordinarily a
       component of a larger procedure is performed alone for a specific purpose, it
       may be considered to be a separate procedure. (Phvsicians’ Current Procedural
       Terminologv. copvright 1988.1990.)

A gastrostomy, for example, is the creation of an artificial opening in the stomach. It
is usually done as a component of surgery in which a cancerous or ulcerated part of
the stomach is removed. However, when performed independently of, and not
immediately related to, other services, it may be listed as a separate service. This
would occur, for example, when a malnourished patient had to have a tube for feeding
placed directly into the stomach, through the skin.

If a carrier were to pay separately for an exploratory laparotomy (incision), a liver
biopsy, and a cholecystectomy (removal of the gallbladder), as did occur in the sample
of claims reviewed for the liver biopsy study, the surgeon would in effect be paid three
times for opening the abdomen.

METHODS

The source of the data examined in this study is the 1988 BMAD file of procedures, a
1 percent sample of all procedures for which Medicare was billed. From a list of
HCPCS codes for exploratory surgery and biopsies, 6 codes with potential for incorrect
billing were selected for further review. The 6 codes selected were billed 199,500
times in 1988; total allowed amounts for these procedures exceeded $54 million
(projected).  Anoth er surgical code was billed on the same day for the same patient
160,300 times, for more than $79 million (projected).

These claims include those in which an anesthesiologist billed a different code than the
surgeon did, creating the appearance of multiple surgeries. These claims were
eliminated. An OIG physician determined which surgical procedures could reasonably
be performed and properly billed on the same day. These were also eliminated, along
with instances in which too little information was provided to make an assessment.
Thus the overall sample was reduced from 3,598 line items to 1,599, largely due to
eliminating those cases in which the anesthesia bill gave the appearance of multiple
procedures having been performed.

Limitations of the Data Since this inspection examined only billing data, errors in
those data could distort the results. For example, claims by anesthesiologists were
eliminated from the sample. If the codes for type of service or specialist were in
error, some anesthesia claims may be intermingled with the claims for surgeons and
their assistants. (Some anesthesia claims which were eliminated were shown as a “2”
(surgery) for type of service, but as an “05” (anesthesia) for specialist type.) We did


                                            2
not examine beneficiary histories to attempt to reconstruct   a billing history, nor did we
examine medical records.

The numbers of claims referred to in the sample have been projected to their
numbers in the universe of 1988 claims. Numbers under 2,000 (i.e., 20 sample claims)
have a wide margin of error. They are shown, however, since they may be easily
identified by carriers’ screening processes.




                                            3

                                     FINDINGS
Physicians frequently billed for biopsies and/or explorations which were
part of another surgical procedure, realizing as a result more than $12
million in overpayments in 1988.

Projected overpayments associated with two exploratory surgery codes, and with
surgical biopsies of the liver and pancreas total $7,620,565 for 1988.

The overpayments identified in this report are shown in detail in Appendices A
through D. The spreadsheets are labeled with the code which triggered the review.
The principal procedure for which this review determined payment could be allowed is
identified in the left hand columns. When only “separate procedures” were billed, the
procedure with the highest allowed amount was identified as principal and all others
denied. The discussion below documents our findings and concerns, as well as
identifying corrective measures taken by HCFA to address some of these issues.

FraPmenting   laparotomy   claims:

“Laparotomy” is the term used for surgical incision of the abdomen; not to be
confused with “laparoscopy,” in which an instrument is inserted through a small slit
into the abdomen. Some abdominal surgery, e.g., appendectomies, can be performed
through small incisions. A laparotomy, however, is necessarily the first step in major
surgery of the abdomen; an exploratorv laparotomy is undertaken when the surgeon
does not know what, if any, definitive surgery will be needed. Occasionally no further
surgery will be performed, e.g., when cancer is so widespread that removing an organ
would not help the patient. In such cases, the surgeon correctly bills Medicare for
having performed an exploratory laparotomy.

When more major surgery is performed, however, the laparotomy is only the initial
stage of that surgery. For example, if the surgeon discovers a cancerous condition
which necessitates removing part of the colon, he or she would bill for the colectomy
(removal of all or part of the colon), but not for the laparotomy, nor for biopsies or
an incidental appendectomy.    If, during the same surgery, the surgeon also created a
colostomy (an opening from the colon to the surface of the body), he or she could bill
for that, using the code which incorporates both the colectomy and colostomy. The
same principle would apply to a third or fourth distinct procedure. It is perfectly
appropriate to file claims for as many procedures as were performed, but not to
fragment any one procedure into its component parts.

Particularly egregious use of the exploratory laparotomy code is in combination with
those codes, such as 43605 (biopsy of stomach by laparotomy) and 49220 (staging
celiotomy [laparotomy] for Hodgkins’ disease or lymphoma [includes splenectomy,
needle or open biopsies of both liver lobes, possibly also removal of abdominal node
and/or bone marrow biopsies, ovarian repositioning]), in which the laparotomy is


                                           4
inherent in the verbal description of the code. This may, however, represent an effort 

by the physician’s billing staff to find codes describing what the procedure was, fully 

expecting the carrier to pay only the “correct” code. 


Intra-operative   breast biopsies: 


The claims associated with incisional breast biopsies were for the removal of cysts or 

for mastectomies (removal of the breast). Draft Medicare Carriers Manual 

instructions provide for “rebundling” biopsies into payments for cyst excisions and for 

mastectomies, but do not require denial of multiple claims for excisions. While the 

methodology for claims review in this study allowed two mastectomy codes (as 

presumably involving both breasts), the manual instructions deny secondary 

mastectomy codes when the principal procedure is a mastectomy. Correct use of “left” 

and “right” modifiers should allow for more precise assessment. 


The HCFA’s response to the draft version of this report indicate that they believe 

biopsies billed with excisions and mastectomies are permissible (presumably referring 

to the “one-stage” approach to diagnosing and excising cancerous tumors). We have 

retained Appendix B detailing these procedures, but have deleted the amounts paid 

from the overpayment calculation. 


Claims from two surgeons, neither an assistant: 


A chance finding was 20 cases in which a second surgeon billed for the laparotomy, 

without indicating “assistant” status, and was paid as though s/he were the primary 

surgeon. The CPT instructions provide for two surgeons or for a surgical team in 

certain instances. One surgeon’s billing for the laparotomy while another bills for a 

gallbladder extraction does not meet the criteria discussed in CPT. 


For example, two surgeons billed for operating on the same patient on the same day. 

One was allowed $1342 for a hemigastrectomy (removal of half of the stomach); the 

other, although not identified as an assistant, $517. The first surgeon was allowed 

$245 for a liver biopsy; the second $219, plus $235 for an omentectomy (removal of 

abdominal tissue). Both the biopsies and the omentectomy are “separate procedures,” 

not allowable when billed with more major procedures. The second payment for the 

hemigastrectomy is 42 percent of the first; the second liver biopsy payment is 89 

percent of the first. 


The Carriers Manual section referred to above would require denial of 

omentectomies, laparotomies, and various other incidental procedures when 

hemigastrectomy is the principal procedure. Several other major abdominal 

procedures (e.g., colectomy and cholecystectomy) have similar, although less extensive, 

lists of codes to be rebundled. This still allows for many of the overpayments 

identified in this report, both for major procedures for which rebundling is not 

required, and for those separate and incidental procedures not listed. 




                                            5

Claims from assistants at surgery:

In 13 cases in which a primary as well as an assistant surgeon billed for a laparotomy,
the average amount allowed the assistant was $53, ranging from 11 to 33 percent of
the respective surgeon’s allowed amount. In the 23 cases in which an assistant billed
for a laparotomy but a primary surgeon did not, the average amount allowed the
assistant was $148. We did not attempt to determine how the carriers assigned
allowed amounts to the solo bills of the assistants, but may study this issue separately.
Medicare Carriers Manual instructions issued in October 1991 list procedures for
which assistants may not bill. The only impact these instructions would have had on
the claims reviewed in this study would have been denial of $29.41 for an assistant at
an incisional breast biopsy.

Facility codes differing from surgeon’s codes:

Twelve of the exempted claims were for facility fees as well as anesthesia and
surgeon’s fees for breast biopsies. In each case, the facility coded the biopsy code,
although the surgeon indicated that the procedure was a cyst excision, or, in one
instance, a mastectomy. The ambulatory surgical center (ASC) payment group for a
biopsy is the same as the group which includes cyst excision, but lower than the
payment the ASC could have received for a mastectomy.

Projected overpayments   for “separate procedures” billed inappropriately   totalled
$3404,100.

An examination of the codes billed on the same day for the same patient reveals
numerous instances of combinations that are contrary to the guidelines expressed in
CPT-4. For example, billing for code 44005, enterolysis (cutting internal adhesions)
for bowel obstruction (separate procedure), at the same time as any other surgery
violates CPT guidelines. Enterolysis is typically undertaken either because the
adhesions are causing an acute bowel obstruction or incidental to another reason for
having opened the abdomen, such as during gallbladder surgery. In either case, a
laparotomy is merely an approach to the surgical field, and should not be paid for
separately. Additionally, this code for lysis of adhesions is limited to use in those cases
in which the lesions cause a bowel obstruction. Thus code 44005 should not be billed
when the adhesions are removed incidentally.

See Appendix D for a list of “separate procedures,” which should be denied when
performed with any other procedure.

Projected overpayments for secondary procedures that should have been denied as
duplicative or mutually exclusive totalled $1,721,600.

Since the codes for exploratory surgery include any biopsies that were performed,      any
claim for a biopsy of an abdominal organ on the same patient on the same day



                                             6

represents duplicate billing.   In these cases, either the biopsy claim or the exploration
claim should be denied.

The primary reason for erroneous claims associated with bone marrow needle biopsies
is billing for the actual aspiration of the material to be examined by more than one
physician, or by one physician twice. In 86 instances, both codes 85095, bone marrow
smear and/or cell block, aspiration only, and 85102, needle biopsy of the bone marrow,
were billed simultaneously. Even if one was billed by a surgeon and the other by a
pathologist, they clearly are both billing for performing the same action. The HCFA
disagrees with this conclusion; we have retained Appendix B, but removed the
payment amounts from the overpayment calculation.

As mentioned earlier, several of the claims associated with breast biopsies were for
both a partial and a radical mastectomy. We assumed that this indicated surgery on
both breasts, so both were allowed.

Multiple   procedures within one code:

Thirteen claims (26 line items) were for duplicate codes 19120, excision of cyst,
fibroadenoma, etc., ... , one or more lesions. We believe this description means that
on any one occasion, this code should be used for all the cysts, etc., removed. In these
cases, however, both were allowed. The codes were paid at the same rate once, one
at half of the other eight times, and one at a reduced rate four times. They are shown
as “deny secondary procedure” in Appendix B.

Mutually-exclusive   procedures:

Cholecystectomies are the procedures most often fragmented in all the claims
examined as part of this report. Several were reported in conjunction with
cholecystenterostomies, a logical impossibility, since the cholecystectomy code means
the gallbladder was removed, and the cholecystenterostomy code that the gallbladder
was connected to the intestine. This concern is not addressed by the draft instructions.




                                              7

                        RECOMMENDATION 


The Health Care Financing Administration        should require carriers to deny or adjust
payment for:

(1)     “exploratory”   surgery performed   incidently to procedure   separately billed,

(2) 	   biopsies performed    in the course of more major surgery in the same body
        cavity,

(3)     “separate procedures”    billed with another procedure,

(4)     mutually-exclusive   procedures, and

(5)     claims by assistants for procedures denied when billed by surgeons.

Proper payment of such claims can be accomplished by creating screens which reject
exploration claims billed with any related code, adjust biopsy claims when billed with
more major surgery in the same body cavity, reject claims for “separate procedures”
unless they are the only procedure billed, reject claims for duplicative and mutually-
exclusive procedures, and pay assistants only when the surgeon may be paid for a
procedure.

This can best be done by creating software which examines claims according to a
logical clinical sequence, rejecting for development (or outright denial) those claims
which fail to pass the screens. The simplest version of this software would merely
reject laparotomies and “separate procedures” done in conjunction with any other
procedure, without further analysis.

The HCFA has created series of combinations, which address some of the problems
identified in this report. For example, laparotomies, lysis of adhesions, and
omentectomies are denied in conjunction with certain abdominal procedures, but not
with many others.

The HCFA concurred with our recommendations concerning exploratory surgery and
payment for separate and mutually-exclusive procedures. They disagree that biopsies
should not be paid for when performed in the course of more major surgery, but have
rather identified a lesser payment amount which does not pay the surgeon again for
having opened the abdomen. In their technical comments they disagreed that
demonstrated unbundling of breast biopsies and bone marrow biopsies. We have
retained the appendices detailing these situations, but have removed the payments for
them from our overpayment calculation. We will expand upon our examination of
assistants at surgery in a future study.




                                               8

                             APPENDIX                   A

Overpayrnem ass&ted       with code 49oo0, Eapbratory   Lqamtomies,   and with 49010,
Retroperitoneal Laparotomies




                                           A -1 

 49000      EXPLORATORY       LAPAROTOMY,         EXPLORATORY         CELIOTOMY         OBS        DENY                ALLOW               ALLOW               DENY                 DENY                 DENY

                            WITH OR WITHOUT          BIOPSY(S),                                     LAP,             PRINCIPAL           SECONDARY           “SEPARATE               LAP,             SECONDARY

                                SEPARATE     PROCEDURE                                            SURGEON            PROCEDURE           PROCEDURE          PROCEDURE”            ASSISTANT           PROCEDURE



 34151      RENAL     EMBOLECTOMY       (ABDOMINAL      INCISION)                         1                              $1,925.30                                                    $320.90

 38100      SPLENECTOMY      (SEPARATE     PROCEDURE);      TOTAL                         2           $695.20            $1,429.85                                $352.20

 38564      LIMITED    LYMPHADENECTOMY,           FOR STAGING       (SEP PROC)            1           $366.50              $411.50                                $100.00

II38770 I PELVIC LYMPHADENECTOMY (SEP PROC);                 UNILATERAL             I     1   I       $672.00    1         $212.50   1                  I                     I                  I                      II
II43500 I GASTROSTOMY, WITH EXPLORATION                                             I 1I             $1,069.60             $611.80   1                  I         $534.80     1                  I         $611.80      11 


II43605 I BIOPSY OF STOMACH BY LAPAROTOMY                                           I 1I              $336.00    I       $1344.00                       I        $1,123.10                       I                      II
  43630 	   HEMIGASTRECTOMY           OR DISTAL   GASTRECTOMY,         WITHOUT            2                              $2,704.30                                $235.00             $345.45
            VAGOTOMY

  43635 	   HEMIGASTRECTOMY           OR DISTAL   GASTRECTOMY,         WITH               1           $291.00            $1,187.00
            VAGOTOMY

  43640 	   VAGOTOMY    INCLUDING        PYLOROPLASY,      WITH OR WITHOUT                3                              $3,067.45            $147.68             $865.49                                  $471.44 

            GASTRECTOMY
                                                                                                                                                                                                                        I

  43820     GASTROJEJUNOSTOMY                                                             1                                $800.00            $437.50                                 $798.50

  43830     GASTROSTOMY,      TEMP (TUBE,RUBBER,PLASTIC)(SEP                PROC)         2          $1,254.10           $1,231.55                                                    $152.10

  43840 	   GASTRORRHAPHY,  SUTURE          OF PERFORATED           ULCER,                3                              $1,833.20                                $606.90               $53.50
            WOUND OR INJURY

II44005 I ENTEROLYSIS       FOR BOWEL      OBSTRUCTION       (SEP PROC)             I    11   I      $2,233.45   1       $8,606.55   1                  I        $1,511.50    1        $3%.64    1                      II
            DUODENOTOMY,  FOR EXPLORATION,              BIOPSY(S),     OR                 1                              $1,088.20                                $879.55 

            FOREIGN BODY REMOVAL                                                                                 I                                      I                                        I                      II 


II44021 I ENTEROTOMY, SMALL BOWEL; FOR DECOMPRESSION                                I 1I              %280.90
                                                                                                         I                 $767.00   1                  I                     I         $56.20   1                      II

II44050 I REDUCTION OF VOLWLUS, INTUSSUSCEPTION, BY LAP                             I 1I                 I               $1,069.60                      I                     I        $192.60   1                      II
II44110 I BIOPSY OF INTESTINE BY CAPSULE, TUBE, PERORAL                             I 2 I             $336.00    I       $1,405.80            $432.00   1         $896.00     1                  I                      II
  44120 	   ENTERECTOMY,      RESECTION      OF SML INTESTINE;        WITH                7          $1,603.30           $7,475.40            $365.60            $1,425.20                                $3,014.65 

            ANASTOMOSIS                                                             I         I                                                                                                  I


  44130     ENTEROENTEROSTOMY.           ANASTOMOSIS      fSEP PROC)                I 1I                         I       $1.180.00                      I         $584.70                        I

  44141 	   COLECTOMY,     PARTIAL;     WITH SKIN LEVEL      CECOSTOMY         OR         2           $175.00            $2,684.00
            COLOSTOMY

  44143 	   COLECTOMY,  PARTIAL;        WITH END COLOSTOMY,           CLOSURE             8           $478.60            $8665.25             $738.05            $1,530.50
            DISTAL SEGMENT




                                                                                                  A-2 

11 44145   1 COLECTOMY,     PARTIAL;     WITH COLOPROCTOSTOMY                         I   1   I                I   $1,571.90   I               I    $311.30    I             I
II I
  44160     COLECTOMY
            ILEOCOLOSTOMY
                         WITH REMOVAL           OF TERMINAL        ILEUM    AND
                                                                                      I
                                                                                          1
                                                                                              I                I
                                                                                                                   $1,550.00
                                                                                                                                               I
                                                                                                                                                    $820.90
                                                                                                                                                                             I

II 44300   I ENTEROSTOMY, OR CECOSTOMY, TUBE (SEP PROC)                               I 2 I       $1,077.30         $868.00
                                                                                                                        I                      I    $264.00
                                                                                                                                                        I                    I
II 44320   I COLOSTOMY OR SKIN LEVEL CECOSTOMY; (SEP PROC)                            I 5 I       $1389.16         $2.89490                    I        I          $423.01   I
II 44345   I REVISION OF COLOSTOMY, COMPLICATED                                       I 1I                     I    $567.70                    I        I          $149.70       $131.60

II 44600   I SUTURE OF INTESTINE, LARGE OR SMALL, SINGLE                              I 1I          $585.60    1    $213.42                    I        I                    I
II 44605   I SUTURE OF INTESTINE; WITH COLOSTOMY                                      I 1I          $291.00         $645.40                    I        I                    I
  44625     CLOSE ENTROSTOMY           WITH RESECTION       & ANASTOMOSIS                 2         $641.70        $2,153.90       $1,140.70        $429.40

  44799     UNLISTED      PROCEDURE,      INTESTINE                                       2         $442.90        $3,147.15                                       $110.70       $450.85

  44900     I & D OF APPENDICEAL         ABCESS, TRANSABDOMINAL                           1                         $734.20                                        $213.90

  44950     APPENDECTOMY                                                                  2         $671.80        $1,054.50                        S895.70        $140.00

  44955     APPENDECTOMY;         WHEN DONE WITH MAJOR             PROCEDURE              1         $554.50           $97.50                                       $110.90

  47000     BIOPSY OF LIVER,      PERCUTANEOUS          NEEDLE                            3       $1,776.90         $198.50                                         $58.20

  47120     HEPATECTOMY,       RESECT LIVER,      PARTIAL     LOBECTOMY                   1                        $1,361.90                                       $156.80

  47420     CHOLEDOCHOTOMY     WITH EXPLORATION,                 DRAINAGE     OR          2         $300.00        $2,040.00                                                     $680.55
            REMOVAL   OF CALCULUS

(/ 47480   1 CHOLECYSTOTOMY        WITH EXPLORATION,             ETC. (SEP PROC)      1   3   1   $1,771.35    I   $1,300.36   I       $9.00   I               I             I   $500.00

  47600     CHOLECYSTECTOMY                                                               4       31J72.15         $2,836.80        $287.50        $2,003.30        $64.20

  47605     CHOLECYSTECTOMY;            WITH CHOLANGIOGRAPHY                              5       $1,4S6.00        $4,081.50        $998.35        SlJ24.12         $57.10

  47610     CHOLECYSTECTOMY,            EXPLORATION      OF COMMON         DUCT           2         $321.00        $1,687.30                        $259.20        $400.00       $300.00

  47720     CHOLECYSTOENTEROSTOMY;              DIRECT                                    2         $623.60        $1,795.00                        $2S5.50

II 47760   1 ANASTOMOSIS.     DIRECT.     EXTRAHEPATIC       DUCTS & GI TRACT         I   1   I                I    S677.45    1    s306.66
                                                                                                                                         I         S1.067.00   I             I
/I I
  48540     INT ANASTOMOSIS,
            ROUX-EN-Y
                                   PANCREATIC         CYST TO GI TRACT;
                                                                                      I
                                                                                          1
                                                                                              I                I
                                                                                                                   SL245.00         $552.40         $510.70
                                                                                                                                                                             I

II 49020   I DRAINAGE     OF PERITONEAL       ABCESS, TRANSABDOMINAL                  I   5   I    $1,243.80       $1,703.45                   I   $1,656.65   1   $133.06   I

II 49200   / EXCISE,   DESTRUCT    INTRA-ABDOMINAL          TUMORS,     CYSTS, ETC.   1   2   1     $810.00        $1,249.00   I               I               I   $103.20

II49220    I STAGING LAP FOR      HODGKIN’S     DISEASE     OR LYMPHOMA               I 1I          $543.20    1   %l,ooo.oo
                                                                                                                        I                      I               I             I
II49505    I REPAIR INGUINAL      HERNIA                                              I 2 I                    I     $778.85   1               I    $898.50        $110.86   I

II 49560   I REPAIR INCISIONAL      HERNIA    (SEP PROC)                              I 2 I         $321.00        $1,082.55   /      $66.34   I   $1,019.10                 I
II 49565   I REPAIR INCISIONAL      HERNIA,    RECURRENT                              I 1I                     I     $319.40   I               I               I   $149.10       $319.40




                                                                                                  A-3 

49999   UNLISTED     PROC, ABDOMEN,       PERITONEUM        AND OMENTUM          2        $855.70       $408.85     $177.36                  $128.30

50230   NEPHRECTOMY,       RADICAL,     REGIONAL     LYMPHADENECTOMY             1        $638.80      $1306.20

50390   ASPIRATION     &/OR INJECTION,     RENAL     CYST, PERCUTANEOUS          1       $l,OOO.OO       $51.75                              $200.00

50800   URETEROENTEROSTOMY;            UNILATERAL                                1        $294.10       $992.00                               $58.80

51550   CYSTECTOMY,      PARTIAL;     SIMPLE                                     1        $320.90       $929.90

51840   ANTERIOR   VESICOURETHOPEXY                                              1        $853.00      $1,191.80                             $400.00
        (MARSHALL-MARCHETTI-KRANTZ);               SIMPLE

51841   ANTERIOR  VESICOURETHOPEXY;            COMPLICATED        (e.g.,         1        $320.90       $705.90
        SECONDARY   REPAIR)

58150   TOTAL ABDOMINAL    HYSTERECTOMY,             WITH/WITHOUT                9       $4,678.08   $10,213.40                $1,200.00
        SALPINGO-OOPHORECTOMY

58210   RADICAL      HYSTERECTOMY                                                 1                    $2,231.60                             $107.10

58720   SALPINGO-OOPHORECTOMY,            UNI- OR BILATERAL,        SEP PROC     4       $1,985.50     $3,839.04                 $356.50

58920   WEDGE RESECTION        OR BISECTION        OF OVARY,    UNILATERAL        1                     $337.50                  $844.25
        OR BILATERAL

58925   OVARIAN      CYSTECTOMY,      UNILATERAL      OR BILATERAL               2        $260.45      $1,008.50                $1347.85

58940   OOPHORECTOMY,        PARTIAL     OR TOTAL,     UNILATERAL          OR    3       $1,433.40     $1,559.50    $388.15                              $778.00
        BILATERAL

58950   RESECTION   OF OVARIAN         Ca WITH                                    2       $600.00      5LO16.35                  $487.50                $1,417.35
        SALPINGO-OOPHORECTOMY             & OMENTECTOMY

58951   RESECTION  OF OVARIAN          Ca WITH TOTAL        ABDOMINAL             1       $582.00      $1365.00
        HYSTERECTOMY



                                                                                141     S39,637.44   $115,713.17   $5,957.29   $26,426.32   $5902.92   $11255.94




                                                                                      A-4 

     49010                         EXPLORATION,        RETROPERINEUM,                       OBS        DENY                 ALLOW                ALLOW               DENY             DENY 


II              I                    WITH OR WITHOUT          BIOPSY(S),                I         I LAPAROTOMY,           PRINCIPAL            SECONDARY           “SEPARATE      1 SECONDARY      11 


II              I                          SEPARATE     PROCEDURE                       I         I SURGEON               PROCEDURE            PROCEDURE          PROCEDURE”      1 PROCEDURE      11 





II 38564
     I              LIMITED LYMPHADENECTOMY,
                    PROCEDURE)

                                                           FOR STAGING     (SEPARATE
                                                                                        I 1I               $275.00             $411.50
                                                                                                                                                              I $lCKMOII

II 38100
I SPLENECI-OMY (SEPARATE                      PROCEDURE);     TOTAL            I 1I               $200.00    I        $800.00                        I                   I                II
II 43820 I GASTROJEJUNOSTOMY                                                            I 1I             $1,500.00             $800.00              $437.50                       I                II 

                                                                                                                                                                                         .. 

      43832         GASTROSTOMY,          PERMANENT,     WITH CONSTRUCTION         OF         1            $730.00             $859.80 

                    GASTRIC TUBE

      49200 	       EXCISION    OR DESTRUCTION          OF INTRA-ABDOMINAL                    1            $532.39             $974.40                                                  S782.20
                    TUMORS,     CYSTS, ETC.

      49530         REPAIR     INGUINAL     HERNIA.    INCARCERATED                           1            $300.00             S667.00


II 58150
     I              TOTAL ABDOMINAL    HYSTERECTOMY,
                    SALPINGO-OOPHORECTOMY
                                                                  WITH/WITHOUT
                                                                                        I I   1            $450.00             $895.80 

                                                                                                                                                              I                   I                II

II    58200     1 TOTAL      HYSTERECTOMY,        INC. PARTIAL       VAGINECTOMY        I 1I               $250.00    1      $1,190.00     1                  I          $75.00   /                II 

II    22842     j REMOVAL        OF SPINAL INSTRUMENT                                   I 1I             J1600.00     I      $3307.50      1                  I                   I    $1,828.20   11 




II              I                                                                       I     9   I       $5,837.30          $9906.00      I        $437.50             $175.00        $2,610.40   11 





                                                                                                      A-5 

                             APPENDIX                  B

Overpayments associated with code 19101, Biopy of breast, inctinal   and with code
85102, Bone mun-ow needle biopsy




                                         B-l
B-2 

/I   85102   1                BONE MARROW       NEEDLE    BIOPSY          I OBS   1    DENY         I     ALLOW         I     ALLOW        I      DENY

                                                                                      BIOPSY,           PRINCIPLE           SECONDARY            BIOPSY,

                                                                                      SURGEON           PROCEDURE           PROCEDURE          LABORATORY



II 20220     I BONE BIOPSY, NEEDLE, SUPERFICIAL                           I 9 I          $357.00    I        $754.30    1                  I          $336.13

II 20225     I BONE BIOPSY, NEEDLE, DEEP                                  I 5 I                     I        $420.40    1        $110.55   1          $230.90

II 20245     I BONE BIOPSY, EXCISIONAL, DEEP                              I 1I            $84.60    1          $72.00   /                  I
II 27447     I TOTAL KNEE REPLACEMENT                                     I 1I                      I       $2,853.54                      I             $82.90

II 85095     I BONE MARROW SMEAR, ASPIRATION             ONLY             I %I          $7,014.05   I       $4,164.63   1                  I             $81.00


II I 85100       BONE MARROW
                 INTERPRETATION
                                  SMEAR, ASPIRATION,     STAINING     &
                                                                          I I18         SlJO7.65            $1,937.10
                                                                                                                                           I
     85101       BONE MARROW      SMEAR,   ASPIRATION    & STAINING           1          $130.00               $90.00



                                                                            121         $8,693.30          $10,291.97            $110.55              $730.93




                                                                                       B-3
                             APPENDIX                  C

Overpayments associiated with code 47100, Biopy of liver, wedge (separate procedure)
and with cock 48100, Biopsy of pancreas (separate procedure)




                                          C-l
Morning      Report:              2     Ye8      -      No
Title: 	         Implementation           of   State      Child     Support      Certified        Data
                 Systems

Reference:          OEI-04-96-00010                    Contact:        Mary Beth Clarke
                                                                       (202) 619-2481

We released        a final    report      on implementation         of State      child 

support    certified       data systems.         States      appear   to be well 

positioned       to get their        systems    certified       by the October          1, 

1997 deadline.          At the time of our review,               six States       had 

certified     data systems.           Forty-two       States    and territories 

anticipate       having    their     systems    certified       by the deadline. 


Most States         attributed       implementation         delays      largely          to a 

requirement         to share      technology,       short    time frames,               and 

ineffective         State      and contractor       working      relationships. 


Despite      the favorable          outlook,        continuing         attention         will   be 

needed     to ensure       success.          We recommended            that     ACF continuously 

monitor      the status         of each State's           progress,         provide       technical 

assistance        to States        having     difficulty        meeting         the revised 

deadline,       and continue          to monitor         and provide          technical 

assistance        to States        as they prepare            to develop          additional        data 

systems      required      by the Personal              Responsibility            and Work 

Opportunity         Reconciliation           Act of 1996.            The ACF agreed           with 

our recommendations. 

